RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-1009
JOHN H. RAMIREZ,
Petitioner,
v.
BRYAN COLLIER, ET AL.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Gordon D. Todd, certify that
the Brief of Alliance Defending Freedom as Amicus Curiae in Support of Petitioner
in the foregoing case contains 5,203 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 27, 2021.
/s/ Gordon D. Todd
GORDON D. TODD
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

